Memorandum No. D-2010-RAM-013               July 02, 2010




   American Recovery and Reinvestment Act Projects -
   341st Missile Wing, Malmstrom Air Force Base
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/recovery/index.html or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                         ODIG-AUD (ATTN: Audit Suggestions)
                         Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                         Arlington, VA 22202-4704




Acronyms and Abbreviations

A&E          Architecture and Engineering
AFB          Air Force Base
FAR          Federal Acquisition Regulation
FBO          Federal Business Opportunities
FPDS         Federal Procurement Data System
FSRM         Facilities Sustainment, Restoration, and Modernization
IDIQ         Indefinite-Delivery, Indefinite-Quantity
MILCON       Military Construction
OMB          Office of Management and Budget
SABER        Simplified Acquisition of Base Engineering Requirements
USACE        United States Army Corps of Engineers
                                INSPECTOR GENERAL 

                              DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DRIVE 

                            ARLINGTON, VIRGINIA 22202-4704 





                                                                              July 02, 2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                (FINANCIAL MANAGEMENT AND COMPTORLLER)
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY


SUBJECT: American Recovery and Reinvestment Act Projects-341 st Missile Wing,
         Malmstrom Air Force Base (Memorandum No. D-201O-RAM-013)

This memorandum provides observations from our audit of selected American Recovery
and Reinvestment Act projects at Malmstrom Air Force Base, Montana, The audit
included analysis of support provided by the United States Anny Corps of Engineers­
Seattle District. We will continue to review DOD's progress and issue subsequent reports
and memoranda that will discuss our evaluation of DOD's implementation of the
American Recovery and Reinvestment Act. We are making no recommendations and do
not require a written response and none was received. Therefore, we are publishing this
memorandum in final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).


                                       ~;O ~'l/r'-../
                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
           Memorandum No. D-2010-RAM-013                                  	July 02, 2010

                 Results in Brief: American Recovery and
                 Reinvestment Act Projects—341st Missile Wing,
                 Malmstrom Air Force Base


What We Did
Our overall objective was to determine whether         Management Comment
DOD appropriately planned and implemented              The Air Force had no comments on a
the Recovery Act projects. Specifically, we            coordinated discussion draft of this report.
reviewed the planning, funding, contracting, and
initial project execution of seven Malmstrom           Figure 1. Damaged military housing in the
Air Force Base Recovery Act projects to                Minuteman Village family housing area.
determine whether efforts of the Military
Services and Defense agencies complied with
Recovery Act requirements, Office of
Management and Budget guidance, the Federal
Acquisition Regulation, and DOD implementing
guidance.

What We Found
	 Malmstrom Air Force Base and the U.S.
   Army Corps of Engineers–Seattle District
   personnel adequately planned recovery act
   projects; and

	 Air Force Space Command personnel
   properly distributed Recovery Act funds to
   Malmstrom Air Force Base for the
   Facilities Sustainment, Restoration, and
   Modernization and the Family Housing                Figure 2. House separated from foundation
   Operations and Maintenance projects. The            caused by excessive ground movement.
   U.S. Air Force Center for Engineering and
   Environment personnel appropriately
   distributed Recovery Act funds to the Army
   Corps of Engineers–Seattle District for the
   military construction project at Malmstrom
   Air Force Base, and contracting personnel
   at both locations properly solicited and
   awarded contracts for the projects
   reviewed.

What We Recommended
This report contains no recommendations.


                                                   i
Table of Contents 



Introduction                                                1     


      Objective                                             1     

      Recovery Act Background                               1         

      Review of Internal Controls                           4         


Results of Review of Malmstrom AFB Recovery Act Projects    5


Appendices 


      Appendix A. Scope and Methodology                    10 

                     Prior Audit Coverage                  12         

      Appendix B. Recovery Act Criteria and Guidance       13 

Introduction
Objective
The primary objective of the audit was to determine whether DOD and its Components
were planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act, Office of Management
and Budget (OMB) Memorandum M-09-10, “Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” February 18, 2009, and subsequent
related guidance. For this audit, we reviewed the planning, funding, contracting, and
initial project execution of seven Recovery Act projects at Malmstrom Air Force Base
(AFB) to determine whether the efforts of the Military Services and Defense agencies
complied with Recovery Act requirements, OMB guidance, the Federal Acquisition
Regulation (FAR), and DOD implementing guidance. See Appendix A for a discussion
of our scope and methodology.


Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this act include the following:
           (1) To preserve and create jobs and promote economic recovery.
           (2) To assist those most impacted by the recession.
           (3) To provide investments needed to increase economic efficiency by
               spurring technological advances in science and health.
           (4) To invest in transportation, environmental protection, and other
               infrastructure that will provide long-term economic benefits.
           (5) To stabilize State and local government budgets, in order to minimize
               and avoid reductions in essential services and counterproductive state
               and local tax increases.

       . . . the heads of Federal departments and agencies shall manage and expend the funds made
       available in this Act so as to achieve the purposes specified [below], including commencing
       expenditures and activities as quickly as possible consistent with prudent management.


Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We have grouped these requirements into the following four phases: (1)
planning, (2) funding, (3) execution, and (4) tracking and reporting. The Recovery Act
requires that projects be properly planned to ensure the appropriate use of funds. Review
of the funding phase is to ensure the funds were distributed in a prompt, fair, and
reasonable manner. Review of the project execution phase is to ensure that contracts
awarded with Recovery Act funds were properly reported, competed, and contain specific
FAR clauses; that Recovery Act funds were used for authorized purposes; and that
instances of fraud, waste, and abuse were mitigated. Review of the execution phase also

                                                  1

ensures that program goals were achieved, including specific program outcomes and
improved results on broader economic indicators; that projects funded avoided
unnecessary delays and cost overruns; and that contractors or recipients of funds reported
results. Review of the tracking and reporting phase ensures that the recipients’ use of
funds was transparent to the public and that benefits of the funds were clearly, accurately,
and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

       buying American construction material,
       protecting contractor whistleblowers,
       publicizing contract actions,
       reporting, and
       giving the Government Accountability Office and agency Inspectors General
        access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, “Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,” directs
contracting officers to use the Government-wide FBO Web site (http://www.fbo.gov) to:

       identify the action as funded by the Recovery Act,
       post pre-award notices for orders exceeding $25,000,
       describe supplies in a clear narrative to the general public, and
       provide the rationale for awarding any contracting actions that were not both
        fixed-price and competitive.

FBO is the Federal Government’s central source of Federal procurement opportunities.
FBO is a Web based portal that allows agency officials to post Federal procurement
opportunities and contractors to search and review those opportunities. Agencies also
post contract award notices on FBO. In addition, to provide transparency, FBO has a
separate section identifying Recovery Act opportunities and awards.

FPDS is the Federal Government’s central source of procurement information.
Contracting officers enter information, to include the Treasury Account Symbol, in the
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables

                                             2

FPDS to provide transparency by generating and posting a report containing all Recovery
Act contract actions.

OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance and DOD and the Components issue their implementation
guidance. OMB has issued eight memoranda and one bulletin to address the
implementation of the Recovery Act. See Appendix B for Federal Recovery Act criteria
and guidance.

DOD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DOD for
the following programs: Energy Conservation Investment; Facilities Sustainment,
Restoration, and Modernization (FSRM); Homeowners Assistance; Military Construction
(MILCON); Near Term Energy-Efficient Technologies, and U.S. Army Corps of
Engineers (USACE) Civil Works.

The values of the six programs are shown in the following Table.

    Table 1. DOD Agency-Wide and Program-Specific Recovery Act Programs
                            Program                          Amount
                                                           (in millions)
    Energy Conservation Investment                             $120
    Facilities Sustainment, Restoration, and Modernization     4,260
    Homeowners Assistance                                        555
    Military Construction                                      2,185
    Near Term Energy-Efficient Technologies                      300
    U.S. Army Corps of Engineers Civil Works                   4,600
       Total                                                $12,020

The Recovery Act divides the approximately $12 billion among 33 DOD and USACE
line items of appropriations. This report covers projects funded through three DOD
Recovery Act lines of appropriation: Air Force Operations and Maintenance, Air Force
Family Housing Construction, and Air Force Family Housing Operations and
Maintenance.

This report covers seven Recovery Act projects valued at $27.4 million implemented on
Malmstrom AFB. The seven Malmstrom AFB projects consist of six FSRM projects,
valued at about $2.4 million, administered on Malmstrom AFB by the 341st Comptroller-
Contracting Squadron. One Malmstrom AFB project is an Air Force Family Housing
MILCON project, valued at about $25 million, administered by the USACE–Seattle
District.

                                           3

Malmstrom AFB
Malmstrom AFB is home to the 341st Missile Wing. The mission of the 341st Missile
Wing is to keep America free and strong by providing combat-ready people and
aerospace forces. The Wing’s unique capabilities consist of Mutual Aid/Firefighting,
Explosive Ordnance Disposal, Law Enforcement Working Dogs, Nuclear, Biological,
Chemical Detection and Emergency Management, and Helicopter Rescue. Malmstrom
AFB is about 23,500 square miles, and is staffed by 3,699 Military Members and
487 Civil Servants.

The Air Force assigned a total of 25 Recovery Act projects to Malmstrom AFB.
Twenty-four of the projects, with an estimated value of $12 million, were administered
by the 341st Comptroller-Contracting Squadron. The 24 projects consisted of 19 FSRM
projects, valued at $10.8 million, and 5 Family Housing Operation and Maintenance
projects valued at $1.6 million.

Army Corps of Engineers–Seattle District
The USACE–Seattle District was responsible for contracting and administering the
Malmstrom AFB Family Housing MILCON project valued at $25 million. The Seattle
District is part of the [USACE] Northwestern Division and provides “military and civil
works services as well as support for other” DOD and Federal agencies. The Seattle
“District also plays a key role in environmental protection and improvement—from
protecting wetlands to ecological restoration” to “hazardous and toxic waste cleanup.”
The “Seattle District’s military mission involves design and construction of projects for
the Army and Air Force, and the Army Reserve” installations in Washington, Idaho,
Montana, and Oregon.”

Review of Internal Controls
Air Force and U.S. Army Corps of Engineer internal controls over the planning, funding,
contracting, and initial execution of the seven Malmstrom AFB Recovery Act projects
reviewed were effective as they applied to the audit objectives.




                                             4

Results of Review of Malmstrom AFB
Recovery Act Projects
Malmstrom AFB and USACE–Seattle District personnel properly planned Recovery Act
projects. These projects were properly reported, competed, fixed-price, and contained
specified Recovery Act FAR clauses. Air Force and USACE personnel properly solicited
and awarded contracts for six FSRM projects (see Table 2) and one Family Housing
MILCON project (see Table 3) reviewed. As a result, the Air Force and USACE
personnel properly justified and awarded Recovery Act contracts totaling $27.4 million
while meeting Recovery Act goals of helping to promote the local and national recovery.

Planning
Malmstrom AFB and USACE–Seattle District personnel properly justified and
adequately planned Recovery Act projects. We reviewed requirements documentation
for six FSRM projects and the DD Form 1391, “Military Construction Project Data,” for
the Family Housing MILCON project. We found that the project cost estimates were
prepared using standard construction engineering cost estimating techniques. The Work
Requirements Board at Malmstrom AFB documented and approved the project
justifications. Specifically, installation and Corps of Engineers personnel properly
justified projects, promoted competition, and awarded contracts expeditiously for the
projects we reviewed.

Our review of the MILCON project documentation noted several deficiencies at the
existing Minuteman Village Housing Complex at Malmstrom AFB. Supporting
documentation accurately classified the project as a “shovel ready” project. Deficiencies
included extensive cracks in the walls and slabs throughout the Minuteman Village
development. In several instances concrete floors have heaved due to the area’s
expansive clay soils, causing damage to basement partition walls and the living space
above. Dry wall sections have collapsed within some units, rendering them unsafe and
unlivable. Basement and garage slabs needed to be replaced, and new drain tile and
sump pumps needed to be installed to effectively remove ground water. Other Family
Housing repair requirements at Malmstrom AFB included garage slabs, garbage
enclosure pads, stoops, sidewalks, and asphalt roadways that had suffered severe damage
and required repair. Also requiring repair are utilities, including water and sewer lines
with reversed slopes causing constant clogging issues. The following photos are
examples of problems with housing units in the Minuteman Village at Malmstrom AFB.




                                            5

Funding and Contracting
Air Force Space Command personnel properly distributed Recovery Act funds to the
341st Missile Wing for FSRM projects, and the Air Force Center for Engineering and the
Environment personnel properly distributed Recovery Act funds to the USACE–Seattle
District for the MILCON project funded from the Air Force Family Housing
Construction line item of appropriations at Malmstrom AFB. We reviewed funding and
contracting documentation for six FSRM projects and one Family Housing MILCON
project. Contracting officials promptly and fairly distributed Recovery Act funds
meeting the Recovery Act goals. Installation personnel began awarding contracts within
40 days after they received Recovery Act funds. We reviewed six FSRM projects valued
at $2.4 million. Four of the FSRM projects, valued at $1.4 million, were funded from the
Air Force Family Housing Operations and Maintenance line item of appropriations and
placed on existing contracts. Two FSRM projects, valued at $969,086, were funded from
the Air Force Operations and Maintenance line item of appropriations and were placed on
new contracts. The 341st Comptroller-Contracting Squadron competitively awarded all
six FSRM contracts to small businesses within 4 months of receiving the Recovery Act
funds.




                                           6

Table 2. FSRM Recovery Act Projects Reviewed at Malmstrom AFB

  Contract     Delivery                                      Award            Est.        Award
  Number        Order      Project No.     Project Title      Date          Amount       Amount
FA4626-08-D-    0013       NZAS-06-        Maintain Base    7/21/2009        $614,000    $439,696
   0002                      1003C         Roads and
                                           Pavements

FA4626-09-C-               NZAS-06-        Repair High       6/4/2009      $1,023,000    $529,390
   0011                     1001F          Temp Hot
                                           Water Service
                                           Lines

FA4626-09-D-     0005      NZAS-06-        Construct        5/19/2009        $200,000    $132,851
   0002                     4002B          Family
                                           Housing Play
                                           Areas

FA4626-09-D-     0006      NZAS-00-        Replace/Instal   5/19/2009        $700,000    $699,525
   0002                     4021F          l Fences –
                                           Housing

FA4626-09-D-     0007      NZAS-06-        Repair           5/20/2009        $200,000    $200,998
   0002                     4003B          Walking
                                           Trails

FA4626-09-D-     0009      NZAS-09-        Install Sump     5/21/2009        $510,000    $386,004
   0002                      4002          Pumps In Wet
                                           Mechanical
                                           Rooms


Table 3. Air Force Family Housing Construction Project Administered by the
USACE–Seattle District

  Contract                                             Award            Estimated         Award
  Number          Project No.       Project Title        Date            Amount          Amount
W912DW-09-C-    NZAS-03-4001C     Repair               9/16/2009        $26,200,000     $24,973,774
    0028                          Structural
                                  Foundations In
                                  Minuteman
                                  Village (179
                                  units)


Project Execution
Malmstrom AFB 341st Comptroller-Contracting Squadron and USACE contracting
personnel properly solicited and awarded contracts for Recovery Act projects. Four of
the six Malmstrom AFB contracted projects were awarded using Simplified Acquisition
of Base Engineering Requirements (SABER) task orders for projects less than
100 percent designed. One project was awarded using an FY 2008 indefinite-delivery,
indefinite-quantity (IDIQ) contract task order. One project (to repair high temperature

                                              7

hot water service lines) was awarded using an FY 2009 contract (FA4626-09-C-0011)
that was for 100 percent Architecture and Engineering (A&E) design projects.

Malmstrom AFB contracting personnel competitively solicited offers for the SABER
contract FA4626-09-D-0002 and received four offers. The Source Selection Authority
selected two offers that represented the best value for the Government. The two SABER
contractors subsequently competed for each delivery order solicited on the SABER
contract.

Malmstrom AFB contracting personnel solicited the IDIQ contract FA4626-08-D-0002
under full and open competition in FY 2008. The contractor was to furnish all labor,
materials, and equipment required for the Pavement Requirements Contract at
Malmstrom AFB. The contract duration was for a base year with 3 option years.

Malmstrom AFB installation and Corps of Engineers–Seattle personnel included required
FAR clauses in awarded Recovery Act contracts as shown in Table 4:

Table 4. Required Recovery Act FAR Clauses

                                  Recovery Act Projects Reviewed1
     FAR       06-4002B       09-4002     06-1003C        06-1001F    03-4001C2      06-4003B   00-4021F
    Clauses
52.203-15          Yes           Yes         Yes            Yes          Yes           Yes        Yes
52.204-11          Yes           Yes         Yes            Yes          Yes           Yes        Yes
52.212-5           N/A          N/A          N/A            N/A          N/A           N/A        N/A
52.214-26          N/A          N/A          N/A            N/A          N/A           N/A        N/A
52.215-2           Yes           Yes         Yes            Yes          Yes           Yes        Yes
52.222-6           Yes           Yes         Yes            Yes          Yes           Yes        Yes
52.225-21          Yes           Yes         Yes            Yes          N/A           Yes        Yes
52.225-22          Yes           Yes         Yes            Yes          N/A           Yes        Yes
52.225-23          N/A          N/A          N/A            N/A          Yes           N/A        N/A
52.225-24          N/A          N/A          N/A            N/A          Yes           N/A        N/A
52.244-6           N/A          N/A          Yes            Yes          Yes           N/A        N/A

1
    All Malmstrom AFB projects begin with the letters NZAS. 

2
    MILCON project administered by the Army Corps of Engineers–Seattle District. 


For the projects reviewed, Malmstrom AFB and USACE–Seattle personnel met the
Recovery Act (or OMB) transparency goals by posting required information on the
Federal Business Opportunities (FBO) Web site. For example, FBO postings were
identified as a Recovery Act project in the project’s title, small business set-asides were
correctly identified, as for information purposes only, and detailed project descriptions
were included in FBO solicitation postings.


                                                     8

The 341st Comptroller-Contracting Squadron issued the six FSRM projects that we
reviewed, and we determined that they met Recovery Act goals by fostering competition
and promptly awarding contracts. Malmstrom AFB contracting personnel began
awarding contract task orders for Recovery Act projects within 40 days of receipt of
Recovery Act funds. The 341st Comptroller-Contracting Squadron awarded the last
FSRM project that we selected to review within 4 months after receipt of funds. USACE
awarded the MILCON project 30 days after it received Recovery Act funding. All seven
of the Recovery Act projects we reviewed that were managed by Malmstrom AFB and
the USACE–Seattle District were expeditiously and competitively awarded.

Tracking and Reporting
We did not review the tracking and contractor reporting of the contracts because, at the
time of our review, OMB’s recipient reporting requirements were not in effect. We will
review recipient reporting of selected Air Force Recovery Act actions in future reports.




                                            9

Appendix A. Scope and Methodology
We conducted this audit from August 2009 through June 2010 in accordance with
generally accepted government auditing standards. Generally accepted government
auditing standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objectives.

Scope
We selected seven Recovery Act projects at Malmstrom AFB.

To determine whether Malmstrom AFB and USACE–Seattle District personnel
effectively administered Recovery Act requirements, we reviewed documentation dated
from April 14, 2008, through September 16, 2009. We obtained an understanding of the
management control structure by identifying regulatory criteria and discussing Recovery
Act project requirements with contracting and civil engineering personnel. We
conducted fieldwork from August 10 through August 14, 2009, at Malmstrom AFB,
Montana, and from November 2 through November 6, 2009, at the USACE–Seattle
District, Seattle, Washington.

   	 To determine whether personnel properly justified Recovery Act projects, we
      reviewed project documentation located at the 341st Civil Engineering Squadron,
      341st Comptroller-Contracting Squadron and the Army Corps of Engineers–
      Seattle District.
   	 To determine whether reported information was properly reported to the public,
      we reviewed the FBO Web site to determine whether all required information
      (contractor’s name, award amount, contract number, and related data) was posted
      for the selected projects. Next, we reviewed the contract files to determine
      whether required documentation was maintained (contractor selection rationale
      and small business coordination).
   	 To determine whether personnel included all new FAR clauses in Recovery Act
      contracts, we reviewed contract files to determine whether all applicable clauses
      were included.
   	 To determine whether personnel met Recovery Act goals by fostering
      competition, awarding contracts expeditiously, and creating or retaining jobs, we
      reviewed project files for evidence of adequate competition and project award
      documentation.

Methodology
Our overall audit objective was to evaluate DOD’s implementation of plans for the
Recovery Act of 2009. To accomplish our objective, we audited the planning, funding,
and execution of Recovery Act projects to determine whether efforts of the Military

                                           10

Services and Defense agencies met the accountability and transparency requirements
complied with Recovery Act requirements, OMB guidance, the FAR, and DOD
implementing guidance. Specifically, we determined whether:

      the selected projects were adequately planned to ensure the appropriate use of
       Recovery Act funds (Planning);
      funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding);
      contracts contained required Recovery Act FAR clauses (Project Execution);
      projects avoided unnecessary delays and cost overruns (Project Execution); and
      recipients’ use of funds was transparent to the public and the benefits of the funds
       were clearly, accurately, and timely reported (Reporting).

Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division of the DOD Office of Inspector General analyzed all DOD agency-
funded projects, locations, and contracting oversight organizations to assess the risk of
waste, fraud, and abuse associated with each. We selected most audit projects and
locations using a modified Delphi technique, which allowed us to quantify the risk based
on expert auditor judgment, and other quantitatively developed risk indicators. We
selected 83 projects with the highest risk rankings; auditors chose some additional
projects at the selected locations.

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended, but also of types of projects and types of locations across the Military
Services, Defense agencies, State National Guard units, and public works projects
managed by USACE.

Use of Computer-Processed Data
We used computer-processed data to complete this audit. Specifically, we used the
notices on FBO, data reported from FPDS, Air Force Recovery Act Financial and
Activity Report, and contract documentation from the Electronic Data Archive System
posted from April 2008 through September 2009. We tested the accuracy of this data by
comparing the project data reported on different systems for consistency and also by
meeting with program officials responsible for reporting on the applicable Recovery Act
requirements. Our audit was focused on the reporting of contract actions on specific Air
Force projects. From these procedures, we concluded that the DOD data were
sufficiently reliable for our purposes.




                                            11

Use of Technical Assistance
An engineer from the Technical Assessment Directorate, DOD Office of Inspector
General, assisted in the audit. The engineer supported the team in evaluating the
justification and need for Recovery Act projects selected for review.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                          12

Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria and guidance (notes appear
at the end of the list):

   	 U.S. House of Representatives Conference Committee Report 111-16, “Making
      Supplemental Appropriations for Job Preservation and Creation, Infrastructure
      Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
      State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
      2009, and for Other Purposes,” February 12, 2009

   	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
      February 17, 2009

   	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009

   	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Reinvestment Act of 2009 Appropriations,” February 25, 2009

   	 White House Memorandum, “Government Contracting,” March 4, 2009

   	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
      Funds,” March 20, 2009

   	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009,” April 3, 2009 1

   	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
      With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
      Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 2009 2

   	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
      with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 2009

                                           13

    	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
       Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
       Clause 52.204-11,” September 30, 2009 2

    	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
       and Reinvestment Act – Data Quality, Non-Reporting Recipients, Reporting of
       Job Estimates,” December 18, 2009 2

    	 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
       and Reinvestment Act,” March 22, 20102

    	 White House Memorandum, “Combating Noncompliance With Recovery Act
       Reporting Requirements,” April 6, 20102

    	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
       Compliance under the American Recovery and Reinvestment Act,” May 4, 20102



End Notes
1
 Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.




                                                     14

